<html>
<title> - FULL COMMITTEE MARKUP OF DISASTER RELIEF AND IMPROVED ACCESS TO CAPITAL LEGISLATION H.R. 1361, H.R. 1332 AND H.R. 1468</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                FULL COMMITTEE MARKUP OF DISASTER RELIEF 
                         AND IMPROVED ACCESS TO 
                          CAPITAL LEGISLATION 
                   H.R. 1361, H.R. 1332 AND H.R. 1468 

=======================================================================

                      COMMITTEE ON SMALL BUSINESS
                 UNITED STATES HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2007

                               __________

                          Serial Number 110-8

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                     U.S. GOVERNMENT PRINTING OFFICE

33-805 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

























                   HOUSE COMMITTEE ON SMALL BUSINESS

                NYDIA M. VELAZQUEZ, New York, Chairwoman


JUANITA MILLENDER-McDONALD,          STEVE CHABOT, Ohio, Ranking Member
California                           ROSCOE BARTLETT, Maryland
WILLIAM JEFFERSON, Louisiana         SAM GRAVES, Missouri
HEATH SHULER, North Carolina         TODD AKIN, Missouri
CHARLIE GONZALEZ, Texas              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              MARILYN MUSGRAVE, Colorado
RAUL GRIJALVA, Arizona               STEVE KING, Iowa
MICHAEL MICHAUD, Maine               JEFF FORTENBERRY, Nebraska
MELISSA BEAN, Illinois               LYNN WESTMORELAND, Georgia
HENRY CUELLAR, Texas                 LOUIE GOHMERT, Texas
DAN LIPINSKI, Illinois               DEAN HELLER, Nevada
GWEN MOORE, Wisconsin                DAVID DAVIS, Tennessee
JASON ALTMIRE, Pennsylvania          MARY FALLIN, Oklahoma
BRUCE BRALEY, Iowa                   VERN BUCHANAN, Florida
YVETTE CLARKE, New York              JIM JORDAN, Ohio
BRAD ELLSWORTH, Indiana
HANK JOHNSON, Georgia
JOE SESTAK, Pennsylvania

                  Michael Day, Majority Staff Director

                  Adam Minehardt, Deputy Staff Director

                       Tim Slattery, Chief Counsel

               Kevin Fitzpatrick, Minority Staff Director

                                 ______

                         STANDING SUBCOMMITTEES

              Subcommittee on Finance and Tax

                   MELISSA BEAN, Illinois, Chairwoman


RAUL GRIJALVA, Arizona               DEAN HELLER, Nevada, Ranking
MICHAEL MICHAUD, Maine               BILL SHUSTER, Pennsylvania
BRAD ELLSWORTH, Indiana              STEVE KING, Iowa
HANK JOHNSON, Georgia                VERN BUCHANAN, Florida
JOE SESTAK, Pennsylvania             JIM JORDAN, Ohio

                                 ______

              Subcommittee on Contracting and Technology

                      BRUCE BRALEY, IOWA, Chairman


WILLIAM JEFFERSON, Louisiana         DAVID DAVIS, Tennessee, Ranking
HENRY CUELLAR, Texas                 ROSCOE BARTLETT, Maryland
GWEN MOORE, Wisconsin                SAM GRAVES, Missouri
YVETTE CLARKE, New York              TODD AKIN, Missouri
JOE SESTAK, Pennsylvania             MARY FALLIN, Oklahoma

        .........................................................

                                  (ii)

  


              Subcommittee on Regulations, Health Care and Trade

                   CHARLES GONZALEZ, Texas, Chairman


WILLIAM JEFFERSON, Louisiana         LYNN WESTMORELAND, Georgia, 
RICK LARSEN, Washington              Ranking
DAN LIPINSKI, Illinois               BILL SHUSTER, Pennsylvania
MELISSA BEAN, Illinois               STEVE KING, Iowa
GWEN MOORE, Wisconsin                MARILYN MUSGRAVE, Colorado
JASON ALTMIRE, Pennsylvania          MARY FALLIN, Oklahoma
JOE SESTAK, Pennsylvania             VERN BUCHANAN, Florida
                                     JIM JORDAN, Ohio

                                 ______

              Subcommittee on Urban and Rural Entrepreneurship

                 HEATH SHULER, North Carolina, Chairman


RICK LARSEN, Washington              JEFF FORTENBERRY, Nebraska, 
MICHAEL MICHAUD, Maine               Ranking
GWEN MOORE, Wisconsin                ROSCOE BARTLETT, Maryland
YVETTE CLARKE, New York              MARILYN MUSGRAVE, Colorado
BRAD ELLSWORTH, Indiana              DEAN HELLER, Nevada
HANK JOHNSON, Georgia                DAVID DAVIS, Tennessee

                                 ______

              Subcommittee on Investigations and Oversight

                 JASON ALTMIRE, PENNSYLVANIA, Chairman


JUANITA MILLENDER-McDONALD,          LOUIE GOHMERT, Texas, Ranking
California                           LYNN WESTMORELAND, Georgia
CHARLIE GONZALEZ, Texas
RAUL GRIJALVA, Arizona

                                 (iii)

  
























                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page

Velazquez, Hon. Nydia M.........................................1,3,5,8
Chabot, Hon. Steve.............................................2,4,5,10
Jefferson, Hon. William..........................................     4
Gonzalez, Hon. Charlie...........................................     6
Bean, Hon. Melissa...............................................     6
Fallin, Hon. Mary................................................     8

                                APPENDIX


Prepared Statements:
Velazquez, Hon. Nydia M..........................................    30
Chabot, Hon. Steve...............................................    32
Graves, Hon. Sam.................................................    34

                                  (v)

  


                        FULL COMITTEE MARKUP ON



                  DISASTER RELIEF AND IMPROVED ACCESS



                         TO CAPITAL LEGISLATION



                   H.R. 1361, H.R. 1332 AND H.R. 1468

                              ----------                              


                        THURSDAY, MARCH 15, 2007

                     U.S. House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2360 Rayburn House Office Building, Hon. Nydia Velazquez 
[Chairwoman of the Committee] presiding.
    Present: Representatives Velazquez, Millender-McDonald, 
Jefferson, Shuler, Gonzalez, Larsen, Grijalva, Michaud, Bean, 
Cuellar, Lipinski, Moore, Altmire, Braley, Clarke, Ellsworth, 
Johnson, Sestak, Chabot, Bartlett, Graves, Akin, Musgrave, 
Fortenberry, Heller, Davis, Fallin, Buchanan and Jordan.

           OPENING STATEMENT OF CHAIRWOMAN VELAZQUEZ

    Chairwoman Velazquez. I call this meeting to order. Today's 
order of business is the markup of legislation addressing three 
very different but important roles that the Small Business 
Administration plays: access to capital, disaster assistance, 
and contracting.
    This Committee has held a number of hearings on these 
topics, heard from small business owners as well as small 
business advocates. And these three bills address many of the 
issues brought up during those discussions.
    We did not agree on everything, but in the end, the 
conversations that we have had and issues discussed were 
helpful and productive.
    It is my hope that our Committee continues to work in this 
manner on our future legislative endeavors. There is no 
question that many small businesses were affected by Hurricane 
Katrina and that the SBA's disaster response was in question.
    The RECOVER Act of 2007 requires that the SBA have a plan 
in place for such disasters and makes tools available to 
provide relief in a quicker, more efficient manner. I strongly 
believe the RECOVER Act of 2007 will help prevent a situation 
like what occurred after Hurricane Katrina from ever happening 
again.
    The devastation cost by Hurricane Katrina resulted in many 
small firms losing out on a great deal of revenue. The 
Disadvantaged Business Disaster Eligibility Act introduced by 
Mr. Jefferson gives more time to entrepreneurs who have been 
harmed by the Gulf Coast hurricanes to participate in federal 
contracts.
    The third bill, the Small Business Lending Improvements Act 
of 2007, introduced by Ms. Bean and Mr. Chabot will reduce the 
financial and regulatory burden placed on small businesses. 
Most importantly, it will make loans more economical while 
providing long-term stability.
    With the adoption of these bills, we began work on bringing 
the Small Business Administration back to its original mission, 
providing entrepreneurs with competitive tools for today's 
marketplace.
    There is no doubt that these programs are valuable for 
entrepreneurs. And today's legislation will help ensure SBA 
will be the premier resource for our nation's 26 million small 
businesses.
    I would now like to yield to the ranking member, Mr. 
Chabot, for his comments.

                OPENING STATEMENT OF MR. CHABOT

    Mr. Chabot. Thank you very much, Madam Chairwoman. And I 
want to thank you for holding this important markup today to 
consider a number of bills, among them being an important 
bipartisan legislation that will improve and strengthen the 
primary lending programs of the Small Business Administration, 
the 7(a) and the 504 programs.
    In regards to this bill, the Small Business Lending 
Improvements Act of 2007, which is 1332, while many changes are 
suggested for the 7(a) loan program, I believe one of the most 
beneficial aspects of the program, its independence from 
appropriations, is also an aspect that deserves fierce 
protection. Nothing in H.R. 1332 alters that principle.
    I do have one reservation about Title I of the bill. I am a 
little concerned that the SBA may have technical difficulties 
in adequately recalculating the fees to lenders and borrowers 
on a quarterly basis. Even with this reservation, I believe 
that the approach adopted in H.R. 1332 is the best means to 
have the SBA reduce fees to both borrowers and lenders in the 
7(a) loan program.
    Title II of the bill provides much needed improvements to 
strengthen the certified development company program, improve 
its mission of community and local economic development, and 
lower the costs of the program through improved returns on 
liquidations of bad loans.
    H.R. 1332 is an important bill that deserves strong 
bipartisan support when it reaches the House floor. The other 
two bills, we will also have the opportunity to consider the 
RECOVER Act of 2007, which is 1361.
    This bill is designed to improve the SBA's response, one 
that was unacceptable, I think we all agree, in the aftermath 
of Hurricane Katrina to future natural disasters.
    I believe that this bill is well-intentioned and contains 
some policies that would improve the agency's response in the 
future. For example, the legislation would improve coordination 
between the SBA and FEMA to reduce the loan processing time for 
disaster victims.
    However, despite some beneficial aspects of this 
legislation, I remain troubled by specific provisions related 
to grants, double compensation to disaster victims, and certain 
congressional reporting requirements, that they be on a monthly 
basis, rather than quarterly. I will be introducing some 
amendments to address these issues during the course of this 
markup.
    The final bill that we will be marking up is the 
Disadvantaged Business Eligibility Act. H.R. 1468 provides a 
common sense approach to the time limit problem, many 8(a) 
program participants who were located in Louisiana affected by 
Hurricane Katrina.
    The displacement associated with that hurricane certainly 
made it difficult for 8(a) program participants to operate 
their businesses and obtain federal government contracts. It 
seems equitable to extend their participation by 18 months. In 
addition, to simple fairness, the extension will help in the 
necessary recovery of the area.
    Finally, I would like to thank Chairwoman Velazquez for 
incorporating a number of ideas proffered by myself and other 
Republican members of the Committee into some of the amendments 
that she will offer today.
    Clearly there are disagreements, especially concerning the 
most financially prudent means to respond to natural disasters. 
Nevertheless, her staff did not let these differences interfere 
with the sharing of ideas and legislative drafts needed to 
improve legislation.
    And while I expect other legislation to demonstrate 
principled disagreements on issues, I am hopeful that we can 
continue to have a frank and open discussion of legislation 
among members and between our respective staffs. I want to 
again commend you for working in a bipartisan manner.
    I yield back.

    Chairwoman Velazquez. Thank you, Mr. Chabot.
    Do any other members wish to be recognized for the purpose 
of making a statement?
    [No response.]

         STATEMENT OF CHAIRWOMAN VELAZQUEZ ON H.R. 1468

    Chairwoman Velazquez. Well, our first order of business is 
to consider H.R. 1468.
    Chairwoman Velazquez. That is the Disadvantaged Business 
Disaster Eligibility Act introduced by Representative 
Jefferson.
    This legislation allows 8(a) participants who have been 
impacted by Hurricane Katrina to have 18 more months in the 
program. This is not a significant amount of time, but it could 
play a major role in assuring that these businesses are able to 
participate in the rebuilding of their home states.
    There are fewer than 225 current and former 8(a) 
participants in the State of Louisiana that could be eligible 
for this assistance. As currently structured, the program is 
very limited as part of the length of time that companies are 
allowed to participate. In this way, it is unlike any other SBA 
procurement initiative. Others allow recertification in 
increments of three years.
    The 8(a) program is for nine years and nine years only. If 
a company fails at any point during this time, the individual 
owners may never be accepted into the program again.
    In this respect, the program is unprepared for catastrophic 
events, which not only force owners of participating businesses 
to evacuate their location but also to in many cases rebuild 
their companies from the ground up. That is why Mr. Jefferson's 
bill is so important. This legislation is a common sense 
approach to resolve a problem that the 8(a) program is not 
currently structured to deal with.
    I close by urging members to support this bill as I intend 
to. I now recognize Mr. Chabot.


              STATEMENT OF MR. CHABOT ON H.R. 1468

    Mr. Chabot. Thank you, Madam Chairwoman. I will be very 
brief.
    As I mentioned in my opening statement, I believe that this 
is a good piece of legislation. I think it is equitable to 
extend participation by 18 months. It seems like simple 
fairness to do that when one is considering the devastation 
that these people went through.
    And I would commend Mr. Jefferson for offering this 
legislation, would urge my colleagues to support it, and yield 
back my time.
    Chairwoman Velazquez. I recognize the bill's sponsor, Mr. 
Jefferson, for a statement.


            STATEMENT OF MR. JEFFERSON ON H.R. 1468

    Mr. Jefferson. Thank you, Madam Chair. And thank you, Mr. 
Chabot. Particularly I appreciate the bipartisan approach to 
this. And there is no point in my adding to the explanations 
that have been made by you and the Chair Lady.
    I will simply say that many of the 8(a) firms back home are 
hoping to have a real chance at participating in the recovery 
of the area. This permits them an opportunity to be involved in 
bringing back their city and also into recovering the very 
fundamentals of that business. So it is pretty important.
    I thank the Committee for recognizing me. And I just urge 
the committee to adopt the bill.
    Chairwoman Velazquez. Thank you.
    Do any other members wish to be recognized on the bill?
    [No response.]
    Chairwoman Velazquez. The bill is now open for amendment at 
any time. Are there any amendments?
    [No response.]
    Chairwoman Velazquez. Seeing none, I move a Committee vote 
on final passage of H.R. 1468. All of those in favor say 
``Aye.''
    [Chorus of ``Ayes.'']
    Chairwoman Velazquez. All those opposed say ``No.''
    [No response.]
    Chairwoman Velazquez. The bill is agreed to. I move that 
the bill be reported and the staff be directed to make any 
technical corrections prior to the filing of the bill. Without 
objection, so ordered.
    The next piece of legislation that the Committee will 
consider is the Small Business Lending Improvements Act of 
2007.


         STATEMENT OF CHAIRWOMAN VELAZQUEZ ON H.R. 1332

    Chairwoman Velazquez. While small businesses are this 
nation's economic drivers, accessing the capital they need to 
start and grow their firm is always challenging. SBA loan 
programs are essential for small businesses. There is no 
question there needs to be a decreasing cost and increasing 
access to these programs in under-served areas.
    The Small Business Lending Improvements Act of 2007 is a 
bipartisan effort introduced by Ms. Bean and Mr. Chabot. This 
bill will make loans more economical while providing long-term 
stability.
    H.R. 1332 will accomplish a number of important public 
policy initiatives. It will allow for veterans to be able to 
secure funds to start or expand their firms should they choose 
to from F.Y. 2005 to F.Y. 2006. The number of loans to veterans 
steadily decline. With veterans returning from Iraq and 
Afghanistan, the need for affordable financing is more 
important than ever. After the commitment they have made to 
this country, it is important for us to show our commitment to 
their entrepreneur success.
    While enabling small businesses to thrive, H.R. 1332 would 
also positively impact the community. It provides incentives 
for medical professionals to locate to low-income areas. As we 
heard from one of the witnesses in last week's hearing, 
Kathleen Roth from the American Dental Association in support 
of this legislation stated that those in under-served areas are 
especially in need of such a provision.
    One of the strengths of the Small Business Lending 
Improvements Act of 2007 is that it touches every aspect of the 
SBA lending initiatives. By making much needed and long overdue 
changes, it secures ties between local CDCs and the community. 
It also keeps the initiative affordable by enabling CDCs to 
improve the liquidation process, making fees reasonable.
    An important component of this bill is that it increases 
the access to capital for socially and economically 
disadvantaged small business owners and establishes a rural 
lender program to attract small lenders back into the program.
    Clearly the legislation under consideration today 
strengthens the SBA access to capital programs, giving small 
businesses the tools they need to be competitive and 
successful. It ensures SBA programs are the premier lending 
tool for entrepreneurs. And I strongly urge support of this 
bill.
    I would now like to yield to the ranking member, Mr. 
Chabot, and sponsor of the bill for his comments.


              STATEMENT OF MR. CHABOT ON H.R. 1332

    Mr. Chabot. Thank you, Madam Chairman. I think you have 
summed up what the bill does very well. And we agree with your 
comments. So I won't repeat them in order to save time here.
    I would note that one of our colleagues, Ms. Fallin from 
Oklahoma, does have an amendment to offer at the appropriate 
time.
    Thank you. I yield back.
    Chairwoman Velazquez. Mr. Gonzalez?


             STATEMENT OF MR. GONZALEZ ON H.R. 1332

    Mr. Gonzalez. Yes. I seek recognition at this time, Madam 
Chairwoman, to enter a colloquy with you regarding section 104 
of the proposed bill. And the question would go, as I 
understand it--
    Chairwoman Velazquez. The gentleman from Texas is 
recognized.
    Mr. Gonzalez. I'm sorry. Thank you very much, Madam Chair.
    Section 104, medical professionals in designated shortage 
area programs. And, of course, this is about loans to doctors 
and dentists in these designated areas. And what I wanted to 
make clear--and I know this is a pet project of mine, and so I 
ask my colleagues to bear with me. But I wanted to make 
absolutely clear that the purpose of these loans could go again 
for the purchase and such and acquiring and obtaining health 
information technology because I would hate to think that these 
individuals in the under-served areas would be deprived of what 
no doubt will be one of the most necessary tools to health care 
professionals.
    Chairwoman Velazquez. The loans that are provided under 
this section of the bill can be used for the purposes mentioned 
by the gentleman. And I agree about importance of health 
information technology. I will make it clear that in the 
Committee report language on the bill, it states that these 
loans can be used for health IT.
    Those in under-served areas should have access to the best 
health care available. And it is clear that is the intent of 
the gentleman from Texas.
    Mr. Gonzalez. Thank you very much. I yield back.

    Chairwoman Velazquez. And now I will recognize one of the 
sponsors of the bill, Ms. Bean, for an opening statement or a 
statement on the bill.


               STATEMENT OF MS. BEAN ON H.R. 1332

    Ms. Bean. Thank you, Madam Chair. I want to thank Chairman 
Velazquez and Ranking Member Chabot for scheduling today's 
markup on the Small Business Lending Improvements Act of 2007, 
which I introduced earlier this month.
    The expedited consideration of this bill as well as the 
bipartisan support that it has received underscores the 
importance of ensuring access to capital to our small business 
community.
    Coming from a business background, I have a special 
appreciation for the need for entrepreneurs and small business 
owners to have access to affordable capital. That is why I have 
long been active in my support of measures to improve and 
expand SBA loan programs which offer low interest, long-term 
loans to business owners that many times wouldn't qualify for 
assistance elsewhere. This bill is no exception.
    H.R. 1332 makes much needed changes to SBA's lending 
initiatives and, most importantly, helps preserve the original 
intent of these programs to help make available affordable 
sources of financing. This is of particular importance as the 
cost of capital through these programs has risen rapidly over 
the last few years. This bill helps to reverse this trend and 
create long-term stability in the program in a fiscally sound 
way.
    In addition, H.R. 1332 addresses the need for lending in 
our rural communities by restoring the low doc program and by 
strengthening the 504 initiative, which is integral in 
stimulating economic development in communities throughout the 
nation. Together these initiatives will bring small lenders 
back into SBA's lending programs and can spur economic 
development in areas that need it the most.
    Again, I commend this Committee under the leadership of 
Chairwoman Velazquez for recognizing the importance of this 
legislation. Small businesses are the backbone of our economy 
driving domestic job growth. And their success as well as the 
success of our economy is dependent upon their ability to grow 
and expand. This legislation helps provide them with the 
fundamental tools to do just that.
    I urge your support of the bill. Thank you. And I yield 
back my time.

    Chairwoman Velazquez. Do any other members wish to be 
recognized?
    [No response.]
    Chairwoman Velazquez. The Committee will now take up the 
manager's amendment, which makes a series of technical changes.
    Chairwoman Velazquez. Section 103 will be amended to 
provide the SBA with additional flexibility that it needs to 
ensure that the community express program can achieve its 
mission of improving access to capital for socially and 
economically disadvantaged small business owners.
    Other changes were suggested by the minority and will 
revise Title II of the bill to ensure that the appropriate 
terminology is used in referring to the certified development, 
economic development, loan program.
    I urge adoption of the manager's amendment. And I yield to 
the ranking member for his comments.
    Mr. Chabot. Thank you, Madam Chair. We agree with the 
manager's amendment. We appreciate your incorporating some of 
our suggestions in that and yield back the balance of my time.
    Chairwoman Velazquez. Thank you. Do any other members wish 
to be recognized?
    [No response.]
    Chairwoman Velazquez. If no further members wish to be 
recognized, we will move to the adoption of the manager's 
amendment. All of those in favor say ``Aye.''
    [Chorus of ``Ayes.'']
    Chairwoman Velazquez. All opposed say ``Nay.''
    [No response.]
    Chairwoman Velazquez. The manager's amendment is agreed. I 
ask unanimous consent that the text that is amended by the 
manager's amendment be considered as the original text for the 
purposes of amendments. The bill will be open for amendment at 
any time.
    Are there any amendments?
    Mr. Chabot. Madam Chairman?
    Chairwoman Velazquez. Yes?
    Mr. Chabot. I believe Ms. Fallin has an amendment on our 
side.
    Chairwoman Velazquez. Ms. Fallin, you will be recognized. 
And I ask the Clerk to distribute the amendment.


              STATEMENT OF MS. FALLIN ON H.R. 1332

    Ms. Fallin. Thank you, Madam Chairman, Chairman Velazquez. 
I appreciate the time today. And thank you, Ranking Member 
Chabot for the opportunity to speak.
    I have an amendment on the floor that I would like to offer 
and then immediately withdraw. And it's amendment H.R. 1332 
that addresses the issue of certain franchises who, by all 
intents and purposes, are small businesses but not being 
allowed to receive the 7(a) loans to do their affiliation with 
larger franchisers.
    The intention of the amendment of H.R. 1332 was to modify 
the SBA's affiliation standard to allow a business that if it 
is affiliated with another business and, therefore, determined 
to be something other than small, to still be eligible for a 
loan if it had no financial recourse to its affiliates for 
repayment of any of its debt.
    And I understand, Ms. Chairman, that there are technical 
issues that need to be addressed. And I would appreciate the 
Chairwoman continuing to work with me and my staff in order to 
ensure the legislation comes to the House floor and contains 
language that would address this problem.
    Chairwoman Velazquez. I thank the gentle lady for 
withdrawing the amendment and also raising this important 
issue. I agree this is an issue that we need to address. And I 
will make a commitment that I will work with you and your staff 
on this matter before the bill is considered on the floor.
    Ms. Fallin. Thank you, Ms. Chairman.

    Chairwoman Velazquez. Any other amendments?
    [No response.]
    Chairwoman Velazquez. Seeing no further amendments, I move 
that the Committee vote on final passage of H.R. 1332. All of 
those in favor say ``Aye.''
    [Chorus of ``Ayes.'']
    Chairwoman Velazquez. All those opposed say ``No.''
    [No response.]
    Chairwoman Velazquez. The bill is agreed to. I move that 
the bill be reported as amended and the staff be directed to 
make any technical corrections prior to the filing of the bill.


         STATEMENT OF CHAIRWOMAN VELAZQUEZ ON H.R. 1361

    Our next order of business is to consider H.R. 1361, the 
RECOVER Act.
    Chairwoman Velazquez. The 2005 Gulf Coast hurricanes 
exposed numerous problems with the SBA ability to provide 
timely and effective assistance to small businesses devastated 
by a major disaster. In many instances, these problems could 
have been avoided through improved planning.
    Experts from small business and disaster readiness 
organizations, including James Lee Witt, the former Director of 
FEMA, has testified before this Committee that comprehensive 
disaster planning will enable SBA to provide timely assistance 
after a variety of different kinds of incidents. Many of the 
problems that SBA borrowers experience began with root causes, 
like failures to plan ahead for additional staff and space 
needs.
    The RECOVER Act provides for thorough disaster planning and 
directs the SBA to ensure that they are prepared for a wide 
range of disasters.
    This legislation also adds to the tools SBA can use to help 
small businesses who are facing difficult circumstances after a 
disaster.
    For many economically viable small businesses along the 
Gulf Coast, SBA loans and state-run programs were not the right 
solution. This legislation creates a grant program that will 
allow the SBA to help those businesses that could be successful 
contributors to their community's recovery barring any need of 
an infusion of resources to get started again.
    This new grant program is carefully targeted and will 
enable small firms to grow stronger, hiring more employees, and 
giving back to their neighborhoods. Both Congressman Richard 
Baker and the National Black Chamber of Commerce made it clear 
in their testimony that this program has brought and gives 
support because it is vital to the recovery of the Gulf Coast.
    I recognize that there is a cost associated with the grant 
program proposed in this legislation. That cost has been 
carefully considered. And we took steps to ensure that it was 
as minimal as possible while still providing the assistance the 
Gulf region needs.
    The grant program is at the discretion of the SBA. If the 
agency--and I just want to make this clear. If the 
administrator and the agency decide that grants are not needed, 
then it does not have to provide those grants.
    In addition, the grant program is only for the major 2005 
hurricanes. It does not create a permanent program going 
forward.
    Finally, based on specific criteria in the bill, only a 
small subset of those businesses affected by Hurricane Katrina, 
Rita, and Wilma will be able to actually receive a grant.
    This bill also creates a one-time program to resolve the 
problem with SBA coordination with state grants programs, 
specifically the road home grants. Again, this provision just 
applies to the major 2005 hurricanes and does not create a 
permanent authority.
    The bill permits the administrator to exclude these forms 
of assistance, which in most cases are not duplicative when 
considering the total damages victims are contending with. The 
changes allow states and the federal government to work 
together to get as much assistance as needed to capitalize 
rebuilding to business owners as quickly as possible This 
measure, while limited, will remove an obstacle that has caused 
frustration and confusion.
    In response to concerns raised by borrowers who found 
themselves lost in the long processing system, the RECOVER Act 
creates a private lending program to supplement SBA's lending 
in times of heightened demand. In addition, this bill also 
creates a short-term bridge loan to speed small loans to 
businesses and help them return to work faster.
    I urge my colleagues to consider the problems that small 
businesses have asked us to address and to support this 
important legislation. It is essential that we take steps now 
to modernize and reform the SBA disaster program before the 
next Katrina hits.
    I now yield to Mr. Chabot.


              STATEMENT OF MR. CHABOT ON H.R. 1332

    Mr. Chabot. Thank you very much, Madam Chairwoman. I will 
be brief.
    As I mentioned in my opening statement, I do believe that 
this bill is well-intentioned and contains some policies that 
would improve the agency's response in the future; for example, 
requiring better coordination between FEMA and the Small 
Business Administration. We would be very supportive of that. 
And reducing the loan processing time for disaster victims I 
think also is very commendable.
    However, there are a number of aspects which we will be 
addressing in three amendments relative to the grants and also 
the double compensation to disaster victims and the 
congressional reporting requirements requiring that to be 
monthly reports back to Congress at a time when a disaster 
could be ongoing. And we are afraid that might slow our process 
down.
    So, for those reasons, we will be offering a few amendments 
at the appropriate time. And I yield back. Thank you.
    Chairwoman Velazquez. Thank you.
    Are there any other members who wish to be recognized? Yes, 
Mr. Akin?
    Mr. Akin. Thank you, Madam Chair. I wanted to thank you for 
working with us and our staff on essentially what was a bill 
that we introduced the last year or two, which I believe you've 
got in your manager's amendment, which is coming up. I just 
wanted to thank you for the bipartisan way that you worked with 
us.
    Chairwoman Velazquez. That's correct.
    Mr. Akin. And that is a provision which allows if somebody 
is in the Reserve and they may be a key player in a small 
business and, all of a sudden, they get a call that they are 
going to go East about 8,000 miles, this is a way that we can 
try to give a little bit of protection in a loan that they can 
take to help cover their company in their absence.
    And I think that is important, particularly with the people 
that are on Reserve that are deployed now. And I thank you for 
working with us on that.

    Chairwoman Velazquez. Thank you.
    Any other member who wishes to be recognized?
    [No response.]
    Chairwoman Velazquez. The Committee will now take up the 
manager's amendment, which makes a series of changes that will 
achieve three goals.
    Chairwoman Velazquez. First, these changes will strengthen 
the underlying bill and will make disaster assistance more 
readily available to veterans.
    Second, these changes will help ensure that taxpayers' 
dollars are used responsibly in assisting the most severely 
affected victims of the 2005 hurricanes.
    Finally, this manager's amendment continues our efforts to 
achieve bipartisan cooperation and has been shared with and 
includes provisions from the minority.
    Section 101 will be amended to require that the 
comprehensive disaster response plan be developed and 
maintained by an individual with substantial knowledge in the 
field of disaster readiness and emergency response. This 
amendment will assure that the SBA's disaster plan is developed 
with the knowledge and expertise that a skilled disaster 
planner can provide.
    Improving the SBA disaster program will require enhanced 
agency organization at the highest levels but should not result 
in increased bureaucracy. For these reasons, section 106 will 
be amended to clarify that the newly established director of 
disaster planning and the director of disaster lending should 
not directly result in an increase in the number of agency 
full-time employees.
    To ensure that the grant assistance only goes to the most 
needy small businesses and is only used to spur redevelopment 
in communities that have experienced a failure of market 
forces, section 210 will be limited to businesses located in 
the communities that were most severely affected by Hurricanes 
Katrina, Rita, or Wilma.
    Additionally, section 211, which addresses the duplication 
of benefits by state grants programs, will be narrowed to only 
include disaster victims affected by Hurricanes Katrina, Rita, 
or Wilma.
    To make the disaster program more responsive to the needs 
of businesses affected by military deployments, a new provision 
will be added extending to one year the period during which a 
small business may apply for an economic injury loan as the 
result of an essential employee being deployed for military 
services. This provision will also enable these businesses to 
file a preliminary application so that the disaster assistance 
can be expedited when the employee is actually deployed.
    Taken together, these amendments make H.R. 1361 a more 
balanced and effective piece of legislation for ensuring that 
the SBA has the tools it needs to carry out its disaster 
assistance mission. I urge adoptions of the manager's 
amendment. And I yield to the ranking member for his statement.
    Mr. Chabot. Thank you, Madam Chairwoman. Once again, I will 
be brief.
    Because it narrows the scope of the applicability of the 
bill, we would be supportive of this. In addition to that, it 
includes a very welcome amendment by the gentleman from 
Missouri, Mr. Akin, which we think is a very good amendment. 
And so, for those reasons and others, we would welcome the 
manager's amendment and support it.
    Chairwoman Velazquez. Thank you. Do any other members wish 
to be recognized?
    [No response.]
    Chairwoman Velazquez. If no further members wish to be 
recognized, we will move to the adoption of the manager's 
amendment. All in favor say ``Aye.''
    [Chorus of ``Ayes.'']
    Chairwoman Velazquez. All opposed say ``Nay.''
    [No response.]
    Chairwoman Velazquez. The manager's amendment is agreed to.
    I ask unanimous consent that the text as amended by the 
manager's amendment be considered as the original text for the 
purposes of amendments. The bill will be open for amendment at 
any time.
    Are there any amendments?
    Mr. Chabot. Madam Chair?
    Chairwoman Velazquez. Yes? Mr. Chabot, you will be 
recognized.

    Mr. Chabot. Thank you, Madam Chair. I have three amendments 
at the desk. I would like to start with amendment number 
15.[The amendment offered by Mr. Chabot follows:]
    Chairwoman Velazquez. The Clerk will report the amendment.
    The Clerk. An amendment is offered by Mr. Chabot of Ohio to 
strike section 210--
    Chairwoman Velazquez. I ask unanimous consent to dispense 
the reading. Without objection, so ordered.
    Mr. Chabot. Thank you, Madam Chairman. Move to strike the 
last word.
    Chairwoman Velazquez. The gentleman is recognized for five 
minutes.
    Mr. Chabot. Thank you.
    Madam Chair, I offer an amendment to strike section 210 of 
H.R. 1361, the bill that we are considering at this time. The 
grants are offered to those businesses that otherwise are not 
eligible for an SBA loan.
    In essence, this would authorize the administrator to give 
grants to businesses that the administrator determined would 
not have sufficient resources and prospects to repay a loan. I 
cannot in good conscience support that type of government 
spending.
    We also have heard that large sums of grant money have not 
been distributed to victims of Hurricane Katrina. And I think 
the Congress should figure that out before launching yet 
another program to offer grants.
    And, finally, history demonstrates that Congress passes 
special legislation to reply to disasters. And if grants are 
needed, they should be considered at that time, not in 
legislation designed to improve the overall capacity of the SBA 
to respond to all disasters.
    And, for those reasons, I would offer this amendment, urge 
my colleagues to support it, and yield back the balance of my 
time.
    Chairwoman Velazquez. Thank you.
    Let me just say, Mr. Chabot, what this grant does is that 
it gives the administrator a choice. He could decide whether or 
not to provide grants. It is a choice. It is not a mandate. And 
while I appreciate your concern for this issue, this amendment 
will eliminate an important tool for helping otherwise viable 
businesses rebuilt in the most devastated communities. These 
businesses need financial assistance that the disaster loan 
program cannot provide.
    This Committee is well-aware of the damage caused by the 
2005 hurricanes. Entire communities were destroyed. In many 
places, no homes, no businesses, no public institutions were 
left standing. In these circumstances, ordinary market forces 
cannot spur redevelopment. In these circumstances, there are no 
market forces because there are no businesses and there are no 
people.
    This Committee has heard victims and experts testify that 
the SBA's current disaster loan program is inadequate to help 
victims in these circumstances. In this community, no small 
business owner is willing to risk what little they have for a 
loan to rebuild in a community where there are no homes for 
their customers, no school for their children, and no place to 
buy supplies for their businesses.
    Under these circumstances, the disaster assistance program 
cannot pursue a one size fits all approach. The SBA must have 
tools that are more responsive to victims' needs.
    H.R. 1361 will provide the SBA with authority to administer 
a limited grant program to help the most severely affected 
small businesses damaged by Katrina. To ensure that the grant 
assistance only goes to the neediest small businesses and is 
only used to spur redevelopment in communities where market 
forces have failed, this legislation has been limited to very 
narrow circumstances. So this program has been narrowly 
tailored to ensure that the taxpayers' dollars are spent in a 
responsible manner while providing vital support to the small 
businesses.
    So I urge members to oppose this amendment. Yes, Mr. 
Gonzalez, you are recognized.
    Mr. Gonzalez. Thank you, Madam Chair.
    I would oppose the amendment by Mr. Chabot. Let me explain 
why. Any of us who were present during the impassioned 
testimony by our colleague Representative Baker I think would 
understand that the relief that we are attempting to provide a 
specific area, victims of specific hurricanes is really 
extraordinary in many ways.
    Mr. Baker even pointed out himself that for the first time 
in his life, politically and otherwise, he realized there had 
to be extraordinary measures, both from the government and the 
private sector, to address the enormity of the problem and the 
challenge. Otherwise the rebuilding of New Orleans and the rest 
of the affected areas is not going to occur.
    So I appreciate Mr. Chabot's good faith objection, 
philosophically and otherwise, to this particular provision. 
But I would ask that all of us would keep an open mind and be 
more flexible when it comes to specific circumstances that 
require extraordinary remedies. And if you want to classify 
this as extraordinary, that's fine. But I think you are going 
to see this replicated in other pieces of legislation.
    And either we are truly dedicated to the proposition that 
we can address the aftermath of these hurricanes or we 
shouldn't be introducing the legislation and giving false hope 
to the many people who are affected.
    And, with that, I would yield back?
    Chairwoman Velazquez. Any other member who seeks 
recognition? And I would ask to be very brief because I would 
like to take a vote before we go.
    Mr. Jefferson. Madam Chair?
    Chairwoman Velazquez. Mr. Buchanan?
    Mr. Buchanan. Yes. I would only like to support Mr. Chabot 
on this because in Florida, we have been hit by eight 
hurricanes in a period of two years, completely devastated a 
lot of our areas, like an area I represent. Charlie hit there. 
We still have tarps on building. Unless the federal assistance 
can be evenly handed, what right do we have to choose between 
winners and losers?
    And I just want to be careful about that because I think 
our governor of state has been prepared. In dealing with these 
disasters, I think Jeb Bush has done a great job, but we still 
have a lot of folks who need help down in those areas. In a lot 
of these areas, people are still waiting on assistance in 
Florida. So I want to duly note that.
    Mr. Jefferson. Madam Chair?
    Chairwoman Velazquez. Yes, Mr. Jefferson?
    Mr. Jefferson. If I might say briefly, the New Orleans 
experience was extraordinary. We lost 80 percent of our city 
under water. Twenty thousand businesses were lost. They lost 
records. Most of the small business people now who would 
attempt to go back are basically pioneers because the customers 
aren't there.
    They are ineligible for loans in many cases because they 
can't make the argument that you usually make pro forma when 
you gauge how many customers are going to be there to buy your 
product. It is impossible to do it.
    The SBA representative testified here that usually they 
approve 60 percent of the loans that are made for after 
disasters. In this case, 38 percent were approved because of 
those reasons, some of which I have just mentioned.
    Chairwoman Velazquez. But, Mr.--
    Mr. Jefferson. So I will just leave it here, Madam Chair, 
and urge the Committee to reject the amendment.
    Chairwoman Velazquez. If we are doing a grant program for 
Iraq business people, we can do it for the people of the Gulf 
Coast.
    Mr. Bartlett?
    Mr. Bartlett. Thank you. Thank you, Madam Chair. I would 
like to yield my time to Mr. Chabot.
    Mr. Chabot. Thank you. Thanks for yielding. I will be very 
brief.
    I just want to reiterate that what we are talking about, it 
has already been recognized that these are businesses that, in 
all likelihood, won't be able to repay the loans. And when you 
are giving tax dollars out in something like this, I just think 
we have to be very prudent in our responsibility and how we 
handle those tax dollars. And I don't think that is 
particularly prudent.
    The other thing is that also we know we have had testimony 
here that a lot of the money that is available out there hasn't 
even been given out. And it is not really a matter of just 
throwing more money at the problem here. It is a matter of 
getting to the bottom of why the money hasn't been distributed 
that has already been allocated for this.
    So I just think that this particular thing is unhelpful. 
And so I would ask for a vote on the amendment.
    Chairwoman Velazquez. The question is on the amendment 
offered by Mr. Chabot. All of those in favor say ``Aye.''
    [Chorus of ``Ayes.'']
    Chairwoman Velazquez. All opposed say ``No.''
    [Chorus of ``Noes.'']
    Chairwoman Velazquez. In the opinion of the Chair, the noes 
have it.
    Mr. Chabot. Ask for a recorded vote.
    Chairwoman Velazquez. Yes, a recorded vote is requested. 
The Clerk shall call the roll.
    The Clerk. Ms. Velazquez.
    Chairwoman Velazquez. No.
    The Clerk. Ms. Velazquez votes no. Ms. Millender-McDonald.
    Ms. Millender-McDonald. No.
    The Clerk. Ms. Millender-McDonald votes no. Mr. Jefferson.
    Mr. Jefferson. No.
    The Clerk. Mr. Jefferson votes no. Mr. Shuler.
    Mr. Shuler. No.
    The Clerk. Mr. Shuler votes no. Mr. Gonzalez.
    Mr. Gonzalez. No.
    The Clerk. Mr. Gonzalez votes no. Mr. Larsen.
    Mr. Larsen. No.
    The Clerk. Mr. Larsen votes no. Mr. Grijalva.
    Mr. Grijalva. No.
    The Clerk. Mr. Grijalva votes no. Mr. Michaud.
    Mr. Michaud. No.
    The Clerk. Mr. Michaud votes no. Ms. Bean.
    [No response.]
    The Clerk. Mr. Cuellar.
    Mr. Cuellar. No.
    The Clerk. Mr. Cuellar votes no. Mr. Lipinski.
    Mr. Lipinski. No.
    The Clerk. Mr. Lipinski votes no. Ms. Moore.
    [No response.]
    The Clerk. Mr. Altmire.
    Mr. Altmire. No.
    The Clerk. Mr. Altmire votes no. Mr. Braley.
    Mr. Braley. No.
    The Clerk. Mr. Braley votes no. Ms. Clarke.
    Ms. Clarke. No.
    The Clerk. Ms. Clarke votes no. Mr. Ellsworth.
    Mr. Ellsworth. No.
    The Clerk. Mr. Ellsworth votes no. Mr. Johnson.
    Mr. Johnson. No.
    The Clerk. Mr. Johnson votes no. Mr. Sestak.
    Mr. Sestak. No.
    The Clerk. Mr. Sestak votes no. Ms. Moore.
    Ms. Moore. No.
    The Clerk. Ms. Moore votes no. Mr. Chabot.
    Mr. Chabot. Aye.
    The Clerk. Mr. Chabot votes yes. Mr. Bartlett.
    Mr. Bartlett. Yes.
    The Clerk. Mr. Bartlett votes yes. Mr. Graves.
    Mr. Graves. Yes.
    The Clerk. Mr. Graves votes yes. Mr. Akin.
    Mr. Akin. Yes.
    The Clerk. Mr. Akin votes yes. Mr. Shuster.
    [No response.]
    The Clerk. Ms. Musgrave.
    Ms. Musgrave. Yes.
    The Clerk. Ms. Musgrave votes yes. Mr. King.
    [No response.]
    The Clerk. Mr. Fortenberry.
    Mr. Fortenberry. Yes.
    The Clerk. Mr. Fortenberry votes yes. Mr. Westmoreland.
    [No response.]
    The Clerk. Mr. Gohmert.
    [No response.]
    The Clerk. Mr. Heller.
    [No response.]
    The Clerk. Mr. David Davis.
    Mr. Davis. Yes.
    The Clerk. Mr. Davis votes yes. Ms. Fallin.
    Ms. Fallin. Yes.
    The Clerk. Ms. Fallin votes yes. Mr. Buchanan.
    Mr. Buchanan. Yes.
    The Clerk. Mr. Buchanan votes yes. Mr. Jordan.
    Mr. Jordan. Yes.
    The Clerk. Mr. Jordan votes yes.
    Chairwoman Velazquez. The Clerk will report the vote.
    The Clerk. Madam Chair, there are 10 yes votes and 17 no 
votes.
    Chairwoman Velazquez.The amendment is not agreed to. And we 
will take a recess and go to the House and vote and then come 
back here. Thank you.
    [Brief recess.]
    Chairwoman Velazquez. This hearing will come back to order. 
I recognize Mr. Chabot for the purpose of offering his 
amendment.
    Mr. Chabot. Thank you, Madam Chair. I would move to have an 
amendment at the desk, number 16.
    Chairwoman Velazquez. The Clerk will report the amendment.
    The Clerk. An amendment is offered by Mr. Chabot of Ohio to 
strike section 211 of H.R.--
    Chairwoman Velazquez. I ask unanimous consent to dispense 
with the reading.
    Mr. Chabot. I move to strike the last word.
    Chairwoman Velazquez. The gentleman is recognized for five 
minutes.
    Mr. Chabot. Thank you, Madam Chair. And again I'll be 
brief.
    I certainly empathize with those who suffered as a result 
of Hurricane Katrina. I know that we all do. We heard many 
stories in committee about the devastation that was reaped 
there. However, those who suffered should not be compensated 
twice.
    And, as I understand H.R. 1361, it prohibits the SBA from 
counting grants as a duplication of benefits. Under the bill, 
an applicant for an SBA disaster loan also could receive a 
grant from some other source. Both would have been offered as 
compensation for damages.
    And a strong possibility exists that the individual would 
have received compensation, once in a grant and once in a low-
cost loan twice for the same injury. We certainly don't allow 
that in our courts. And I think in good conscience, we 
shouldn't here. And, therefore, I can't support it.
    And so I offer this amendment on that one narrow issue. And 
I yield back.
    Chairwoman Velazquez. Thank you. Let me just say again this 
grant is optional. It gives the authority to the administrator. 
And he will decide whether or not to issue waivers.
    Let me talk about the road home grant. This was developed 
primarily for housing assistance. We shouldn't penalize a small 
business owner for needing assistance for both their home and 
businesses.
    So if a person in Louisiana lost his home, he cannot access 
any grant to rebuild his home because he also lost his 
business. And so he will have to make a choice whether he goes 
for a small business loan for his business or a road grant to 
rebuild his home. Well, if he doesn't have a business, why does 
he want to rebuild his home if he can pay or sustain his 
business to help him?
    The adoption of this amendment will put a small business 
owner in the predicament of having to choose between repairing 
their home and repairing their business. And this is not a 
situation that we should put them in.
    Let me remind you that Mr. Baker came here. And he 
testified. And he made it clear that there was not duplication 
of benefits for victims who receive no assistance in the first 
place.
    So I will urge my colleagues to vote no on this amendment. 
And any members who will seek recognition? Mr. Jefferson?
    Mr. Jefferson. Thank you, Madam Chair Lady. I want to 
subscribe to your remarks and to say that it is even more 
complicated than that in some respects because people back home 
now--remember, we lost 220,000 houses back home.
    For small business people, when they go into business, the 
home is usually the collateral for the loan. And most of them 
now have to pay their mortgage in addition to seeking new 
sources of support to get back in the house and back in the 
business.
    So assume you are a person who had a business and a loan on 
it, your house collateralized it, and your home flooded. What 
you do now is your home mortgage still stays there. You don't 
get away from that. You still must pay that.
    So you go to the SBA. And you don't qualify for as much as 
you as need to build back your house because you still have 
this outstanding requirement to pay your home mortgage. So you 
always fall short on the SBA. So there is very little chance of 
a duplication occurring here because you aren't going to 
usually make it to that point.
    And so the way the bill is tailored I think, as the Chair 
Lady has said, there is a lot of discretion with the secretary. 
There is a very limited opportunity here for any such problem 
spoken of here. And on the up side, for the most part, this is 
going to be extraordinarily helpful to the recovery.
    And I appreciate this conclusion in the bill. And I will 
join the Chair Lady in objecting to this amendment's adoption.
    Chairwoman Velazquez. Does any other member seek 
recognition on this amendment? Mr. Akin?
    Mr. Akin. Madam Chair, would it be all right to inquire of 
the maker of the amendment? I am just curious. Is this 
theoretically somebody could get a state grant, somebody could 
get a federal grant, and it could be both grants for the same 
thing? Is that correct?
    Chairwoman Velazquez. No. The state grant, in this case the 
road grant, will be for rebuilding their homes. And the 
business grant will be to help rebuild their businesses.
    Mr. Chabot?
    Mr. Chabot. My understanding is that yes, that is possible. 
Now, before it gets to the floor, we can get more clarification 
on that. But it is my understanding that is possible.
    Mr. Akin. So this is to prevent double dipping, is what you 
are trying to do?
    Mr. Chabot. That's correct, yes. Again, if any of these 
things come up, we can always get clarification prior to the 
floor. But that is the reason for offering the amendment, that 
we're trying to be as prudent as possible with limited tax 
dollars and to avoid double dipping, which isn't fair to the 
taxpayer.
    Mr. Akin. If somebody had a home, would they have flood 
insurance on that? So would insurance have covered that or was 
that couldn't you get flood insurance down there?
    Mr. Chabot. Would the gentleman yield?
    Mr. Akin. Yes.
    Mr. Chabot. Well, certainly it is possible. Many people 
had. A lot of people didn't have flood insurance either. And 
you couldn't double dip in that circumstance. But under this, 
perhaps you could.
    Mr. Akin. Thank you. Thank you, Madam Chair.
    Chairwoman Velazquez. Any other member who seeks 
recognition on this amendment?
    [No response.]
    Chairwoman Velazquez. Well, the question is on the 
amendment offered by Mr. Chabot. All of those in favor say 
``Aye.''
    [Chorus of ``Ayes.'']
    Chairwoman Velazquez. All opposed say ``No.''
    [Chorus of ``Noes.'']
    Chairwoman Velazquez. In the opinion of the Chair, the noes 
have it.
    Mr. Chabot. Madam Chair, ask for a recorded vote.
    Chairwoman Velazquez. The Clerk shall call the roll.
    The Clerk. Ms. Velazquez.
    Chairwoman Velazquez. No.
    The Clerk. Ms. Velazquez votes no. Ms. Millender-McDonald.
    Ms. Millender-McDonald. No.
    The Clerk. Ms. Millender-McDonald votes no. Mr. Jefferson. 
Mr. Jefferson.
    Mr. Jefferson. No.
    The Clerk. Mr. Jefferson votes no. Mr. Shuler.
    [No response.]
    The Clerk. Mr. Gonzalez.
    Mr. Gonzalez. No.
    The Clerk. Mr. Gonzalez votes no. Mr. Larsen.
    [No response.]
    The Clerk. Mr. Grijalva.
    Mr. Grijalva. No.
    The Clerk. Mr. Grijalva votes no. Mr. Michaud.
    Mr. Michaud. No.
    The Clerk. Mr. Michaud votes no. Ms. Bean.
    Ms. Bean.. No.
    The Clerk. Ms. Bean votes no. Mr. Cuellar.
    Mr. Cuellar. No.
    The Clerk. Mr. Cuellar votes no. Mr. Lipinski.
    [No response.]
    The Clerk. Ms. Moore.
    [No response.]
    The Clerk. Mr. Altmire.
    [No response.]
    The Clerk. Mr. Braley.
    Mr. Braley. No.
    The Clerk. Mr. Braley votes no. Ms. Clarke.
    Ms. Clarke. No.
    The Clerk. Ms. Clarke votes no. Mr. Ellsworth.
    Mr. Ellsworth. No.
    The Clerk. Mr. Ellsworth votes no. Mr. Johnson.
    [No response.]
    The Clerk. Mr. Sestak.
    [No response.]
    The Clerk. Mr. Shuler.
    Mr. Shuler. No.
    [No response.]
    The Clerk. Mr. Shuler votes no. Ms. Moore.
    Ms. Moore. A question, please. Sorry.
    [Laughter.]
    Ms. Moore. No.
    The Clerk. Ms. Moore votes no. Mr. Chabot.
    Mr. Chabot. Aye.
    The Clerk. Mr. Chabot votes yes. Mr. Bartlett.
    Mr. Bartlett. Yes.
    The Clerk. Mr. Bartlett votes yes. Mr. Graves.
    [No response.]
    The Clerk. Mr. Akin.
    Mr. Akin. Aye.
    The Clerk. Mr. Akin votes yes. Mr. Shuster.
    [No response.]
    The Clerk. Ms. Musgrave.
    Ms. Musgrave. Yes.
    The Clerk. Ms. Musgrave votes yes. Mr. King.
    [No response.]
    The Clerk. Mr. Fortenberry.
    Mr. Fortenberry. Yes.
    The Clerk. Mr. Fortenberry votes yes. Mr. Westmoreland.
    [No response.]
    The Clerk. Mr. Gohmert.
    [No response.]
    The Clerk. Mr. Heller.
    Mr. Heller.. Yes.
    The Clerk. Mr. Heller votes yes. Mr. David Davis.
    Mr. Davis. Yes.
    The Clerk. Mr. Davis votes yes. Ms. Fallin.
    [No response.]
    The Clerk. Mr. Buchanan.
    [No response.]
    The Clerk. Mr. Jordan.
    [No response.]
    The Clerk. Mr. Larsen.
    Mr. Larsen. No.
    The Clerk. Mr. Larsen votes no.
    Chairwoman Velazquez. The Clerk will report the vote.
    The Clerk. Madam Chair, there are 14 no and 7 yes.
    Chairwoman Velazquez. The amendment is not agreed to.
    Mr. Chabot. Madam Chair?
    Chairwoman Velazquez. Yes, Mr. Chabot?
    Mr. Chabot. Thank you. I have one additional amendment at 
the desk, amendment 17.[The amendment offered by Mr. Chabot 
follows:]
    Chairwoman Velazquez. The Clerk will report the amendment.
    The Clerk. Mr. Chabot from Ohio has offered an amendment to 
on page 26 of H.R. 1361 to stroke--
    Chairwoman Velazquez. I ask unanimous consent that the 
amendment be considered as read.
    Mr. Chabot. Thank you, Madam Chair. Move to strike the last 
word.
    Chairwoman Velazquez. The gentleman is recognized for five 
minutes.
    Mr. Chabot. Thank you again. And I will try to be brief.
    I certainly understand the need for Congress to be informed 
of how Executive Branch agencies are carrying out their 
statutory mandates. That requires these agencies to report to 
Congress to report to us.
    Given the recent history of the SBA, it certainly makes 
sense to have the agency report annually to Congress on its 
disaster response. However, the bill also requires the 
administrator to report monthly during an incident of national 
significance.
    Given this Committee's complaint that the SBA's disaster 
response, it seems somewhat illogical to divert resources, even 
small amounts, from the pressing disasters, those that rise to 
the level of an incident of national significance. I just think 
it doesn't make sense to require a monthly type of report at a 
time when their full resources ought to be devoted to 
addressing the disaster and helping those who really need the 
help.
    So, for that reason, I would urge passage of this amendment 
and yield back the balance of my time.
    Chairwoman Velazquez. I will oppose this amendment. And, 
Mr. Chabot, I understand your concern about the burden that it 
might impose, but let me be clear. This amendment has no burden 
on SBA. These are reports that they produce in a daily basis.
    After Katrina, this Committee under the previous 
administrator, we held so many hearings. Hector Barreto came 
before this Committee and told us that everything was fine, 
that nothing was creating any problems in terms of the disaster 
relief that they were providing to the victims of Katrina.
    And report after report, paper after paper in this country, 
victims spoke about the inefficiency coming out of SBA. In 
hearings after hearings, Katrina, the SBA told this Committee 
that everything was fine.
    Let me just say what this means is oversight. And the 
problems that we saw during Katrina and the lack and inadequate 
response that came out of SBA was a result of the lack of 
oversight coming out of this Committee. And that is not going 
to happen anymore.
    So this agency in its oversight, especially during major 
disaster, the American public and the American people, they 
need to know that the federal government will do everything 
they can to provide the assistance that we promise to them and 
that we committed to provide.
    Mr. Chabot. Would the gentle lady yield?
    Chairwoman Velazquez. Sure.
    Mr. Chabot. Okay. I thank the gentle lady for yielding. 
And, again, I will be very brief.
    I would just note that, even though it is a written report 
that the administrator has to put together, I think the time 
and effort that goes into that and the time of people 
underneath the administrator to do that does take some 
considerable period of time. And so I think that monthly is 
just too often.
    Chairwoman Velazquez. I respectfully disagree with the 
gentleman. You know quite well that the DCMNS generates this 
data on a daily basis, that if they have a disaster plan in 
place, there has to be communication between the administrator 
and the director of the disaster relief effort, that this 
communication and information that they share is all we are 
asking them to provide to us. So this provision has no cost. 
This provision doesn't impose any burden upon the work that the 
SBA and the administrator have to provide.
    If any other member wishes to seek recognition? Yes?
    Mr. Ellsworth. Madam Chair?
    Chairwoman Velazquez. Mr. Ellsworth?
    Mr. Ellsworth. As someone who has been through a natural 
disaster not nearly the size of Katrina, but certainly in our 
community it was devastating, this was something that required 
a report in the days when we were talking about food, medicine, 
and shelter, I could agree.
    But in this world of mass media, they are asking us 
questions immediately and for reports and expect us to know 
that. So I don't think a 30-day report is too much to ask when 
we are asked the questions when we go back home.
    So I would not support this amendment.
    Chairwoman Velazquez. Any other member wish to be 
recognized?
    [No response.]
    Chairwoman Velazquez. The question is on the amendment 
offered by Mr. Chabot. All of those in favor say ``Aye.''
    [Chorus of ``Ayes.'']
    Chairwoman Velazquez. All those opposed say ``No.''
    [Chorus of ``Noes.'']
    Chairwoman Velazquez. In the opinion of the Chair, the noes 
have it. The amendment is not agreed to.
    If there is any other member who wishes to be recognized 
for the purpose of any amendment? Mr. Michaud?
    Mr. Michaud. Thank you very much, Madam Chair. I have an 
amendment at the desk numbered--[The amendment offered by Mr. 
Michaud follows:]
    Chairwoman Velazquez. The Clerk will report the amendment.
    The Clerk. An amendment is offered by Mr. Michaud of Maine 
at the end of Title II to add the following, section 216, 
``Economic Injury''--
    Chairwoman Velazquez. We ask unanimous consent that the 
amendment be considered as read. Without objection, so ordered. 
The gentleman is recognized for five minutes to discuss his 
amendment.
    Mr. Michaud. Thank you, Madam Chair.
    The RECOVER Act is a great bill that makes a lot of needed 
changes to the SBA disaster planning and assistance program. I 
want to thank you and Mr. Chabot for having this markup today.
    As you know, the SBA makes economic injury disaster loans 
to small businesses that have been adversely affected by 
specific disaster events. Last year SBA was newly authorized to 
provide these loans in cases of drought. My amendment simply 
adds the lack of snowfall as a category eligible for economic 
injury disaster loan assistance.
    Small community and businesses in the State of Maine, in 
the north part of the state, and other states depend on winter 
tourism traffic and other weekend outdoor activities. The lack 
of snowfall can severely threaten their well-being. And, 
unfortunately, these businesses cannot qualify currently under 
SBA authority for drought assistance since lack of snowfall 
doesn't meet the criteria of drought assistance.
    My amendment simply offers equal treatment for small 
businesses affected by the lack of snowfall that are currently 
falling through the cracks. I hope the Committee will accept 
the amendment.
    I yield back, Madam Chair.
    Chairwoman Velazquez. Does anyone else seek to be 
recognized on this amendment?
    Mr. Chabot. Madam Chair?
    Chairwoman Velazquez. Mr. Chabot?
    Mr. Chabot. Thank you, Madam Chair. I move opposition of 
this particular amendment.
    Chairwoman Velazquez. The gentleman is recognized for five 
minutes.
    Mr. Chabot. Thank you.
    The concept behind this amendment is to address the problem 
of lack of snowfall in areas that rely on providing winter 
sports recreation. There are a number of problems with this 
amendment in my view.
    First, how does one measure the lack of snowfall, 
especially in ski areas that can make snow?
    Second, a lack of snowfall in areas actually affects all 
businesses, including those that sell winter sports equipment, 
even if they are not located in the area hit by a lack of 
snowfall. Should those businesses be eligible? And if not, why 
should only businesses located in an area with lack of snowfall 
be subject to the disaster declaration?
    Thirdly, how does one determine the scope of the area? What 
happens if some facilities can make snow and others cannot? 
Should the federal government declare a disaster area because 
of lack of investment, for example? Does this mean that 
recreational areas without snow-making equipment can apply for 
a disaster mitigation loan to purchase such equipment?
    Fourth, would a place that people who winter to avoid harsh 
snow conditions be able to apply for a disaster loan because 
people did not travel to avoid snow because of the lack of snow 
in other areas? In other words, would parts of Florida be able 
to claim a natural disaster for the lack of snow in the 
Northeast because it cut down on the number of individuals 
vacationing in Florida to avoid winter weather?
    Obviously you could go on and on with this. So I just think 
there is too much mischief possible in this particular 
amendment and would strongly urge my colleagues to oppose it 
and yield back the balance of my time.
    Chairwoman Velazquez. Thank you.
    Well, what I see here is another instance of language 
within the Small Business Act being too restrictive for many 
small businesses in need of assistance. And it will be 
important that we look at areas of improvement within the act 
as we continue our work on the reauthorization of the Small 
Business Administration statute.
    So given that fact, I just would ask the members of the 
Committee to support this amendment.
    Yes, Mr. Fortenberry?
    Mr. Fortenberry. Madam Chairwoman, I actually intended to 
support the underlying bill. However, if this amendment passes, 
I will not because throwing open the door this wide with 
limited ability to define or these definitions being so broad 
in their scope and with, actually, a limited ability to have a 
clear definition here, it would be just as easy for me to put 
in a lack of rainfall as an amendment to this one.
    And then suddenly the narrow scope of this bill, which I 
think has some very good provisions that I intend to support, 
in spite of some concerns brought up by the ranking member, 
this would in my view undermine the very purposes, again, of 
the narrow tailoring of the larger bill.
    I yield back.
    Chairwoman Velazquez. Does anyone else seek recognition on 
this amendment? Mr. Michaud?
    Mr. Michaud. Yes. Thank you. Just to address the concerns 
that were raised, there is a process that you have to go to 
through, the government would have to go through, as far as 
declaring a natural disaster. And the process is already in the 
statute. And this would follow through for that same process.
    So I don't envision it to open up a wide door. This 
definitely has affected a lot of small businesses in Maine 
because of the lack of snow. And I would encourage my members 
to support it because there is a process already in place to 
declare a natural disaster. And I just want to include snowfall 
in that.
    Thank you.
    Chairwoman Velazquez. Any other member who wishes to be 
recognized?
    [No response.]
    Chairwoman Velazquez. The question is on the amendment 
offered by Mr. Michaud. All of those in favor say ``Aye.''
    [Chorus of ``Ayes.'']
    Chairwoman Velazquez. All those opposed say ``No.''
    [Chorus of ``Noes.'']
    Chairwoman Velazquez. In the opinion of the Chair, the ayes 
have it.
    Mr. Michaud. Madam Chair?
    Chairwoman Velazquez. Yes?
    Mr. Michaud. Ask for a recorded vote on it.
    Chairwoman Velazquez. A recorded vote is requested. The 
Clerk will call the vote.
    The Clerk. Ms. Velazquez.
    Chairwoman Velazquez. Aye.
    The Clerk. Chairwoman Velazquez votes yes. Ms. Millender-
McDonald.
    Ms. Millender-McDonald. Aye.
    The Clerk. Ms. Millender-McDonald votes yes. Mr. Jefferson.
    Mr. Jefferson. Aye.
    The Clerk. Mr. Jefferson votes yes. Mr. Shuler.
    Mr. Shuler. No.
    The Clerk. Mr. Shuler votes no. Mr. Gonzalez.
    Mr. Gonzalez. Aye.
    The Clerk. Mr. Gonzalez votes yes. Mr. Larsen.
    Mr. Larsen. Yes.
    The Clerk. Mr. Larsen votes yes. Mr. Grijalva.
    [No response.]
    The Clerk. Mr. Michaud.
    Mr. Michaud. Yes.
    The Clerk. Mr. Michaud votes yes. Ms. Bean.
    Ms. Bean. Aye.
    The Clerk. Ms. Bean votes yes. Mr. Cuellar.
    Mr. Cuellar. Aye.
    The Clerk. Mr. Cuellar votes yes. Mr. Lipinski.
    Mr. Lipinski. Aye.
    The Clerk. Mr. Lipinski votes yes. Ms. Moore.
    Ms. Moore. Aye.
    The Clerk. Ms. Moore votes yes. Mr. Altmire.
    [No response.]
    The Clerk. Mr. Braley.
    Mr. Braley. Aye.
    The Clerk. Mr. Braley votes yes. Ms. Clarke.
    Ms. Clarke. Aye.
    The Clerk. Ms. Clarke votes yes. Mr. Ellsworth.
    Mr. Ellsworth. Yes.
    The Clerk. Mr. Ellsworth votes yes. Mr. Johnson.
    Mr. Johnson. Aye.
    The Clerk. Mr. Johnson votes yes. Mr. Sestak.
    Mr. Sestak. No.
    The Clerk. Mr. Sestak votes no. Mr. Chabot.
    Mr. Chabot. No.
    The Clerk. Mr. Chabot votes no. Mr. Bartlett.
    Mr. Bartlett. No.
    The Clerk. Mr. Bartlett votes no. Mr. Graves.
    [No response.]
    The Clerk. Mr. Akin.
    Mr. Akin. No.
    The Clerk. Mr. Akin votes no. Mr. Shuster.
    [No response.]
    The Clerk. Ms. Musgrave.
    Ms. Musgrave. No.
    The Clerk. Ms. Musgrave votes no. Mr. King.
    [No response.]
    The Clerk. Mr. Fortenberry.
    Mr. Fortenberry. No.
    The Clerk. Mr. Fortenberry votes no. Mr. Westmoreland.
    [No response.]
    The Clerk. Mr. Gohmert.
    [No response.]
    The Clerk. Mr. Heller.
    Mr. Heller. No.
    The Clerk. Mr. Heller votes no. Mr. David Davis.
    Mr. Davis. No.
    The Clerk. Mr. Davis votes no. Ms. Fallin.
    [No response.]
    The Clerk. Mr. Buchanan.
    Mr. Buchanan. No.
    The Clerk. Mr. Buchanan votes no. Mr. Jordan.
    Mr. Jordan. No.
    The Clerk. Mr. Jordan votes no.
    Chairwoman Velazquez. Any other member who wish to cast 
their vote or change their vote?
    [No response.]
    Chairwoman Velazquez. The Clerk will report the vote.
    The Clerk. Madam Chair, there are 14 yes votes, 11 no 
votes.
    Chairwoman Velazquez. The amendment is agreed to.
    Mr. Chabot. We are getting closer.
    Chairwoman Velazquez. Yes. Are there any other members who 
wish to be recognized for the purpose of offering amendments?
    Mr. Braley. Yes.
    Chairwoman Velazquez. Mr. Braley?
    Mr. Braley. Yes. Madam Chair, I have an amendment at the 
desk.
    Chairwoman Velazquez. The Clerk will report the amendment.
    The Clerk. There is an amendment offered by Mr. Braley of 
Iowa. At the end of Title II, add the following in section 216, 
``Economic injury disaster''--
    Chairwoman Velazquez. I ask unanimous consent that the 
amendment be considered as read. Mr. Braley, you will be 
recognized for five minutes.
    Mr. Braley. Thank you.
    Madam Chairwoman, Ranking Member Chabot, I am here today as 
a voice for 350,000 Iowans who lost power during the recent ice 
storm to offer an amendment to H.R. 1361, the RECOVER Act, 
which would revise the language within the Small Business Act 
to clarify the definition of the term ``disaster'' to include 
blizzards and ice storms.
    Just a couple of weeks ago, Iowa was hit with a massive ice 
storm, one of the worst in its history, which caused extensive 
damage throughout the state and left hundreds without power.
    Weather in Iowa can be unpredictable and dangerous. And 
this was no exception. I was personally affected by this ice 
storm when a 40-foot ice-coated branch struck my home in 
Waterloo. With the help of my neighbors and our chain saws, I 
was able to cope with some personal property damage and 
inconvenience. But my situation paled in comparison to the 
constituents I met while visiting storm emergency shelters in 
Iowa's First Congressional District.
    These Iowans were there because they had been displaced 
from their homes as a result of their ice storm, including many 
from their businesses. Currently the SBA has to wait for the 
President to declare something a disaster area before giving 
disaster loans to small businesses.
    There are well-known exceptions. These include severe 
situations, such as floods, hurricanes, tornadoes, earthquakes, 
fires, explosions, volcanoes, windstorms, landslides or mud 
slides, tidal waves, commercial fishery failures, fishery 
resource disasters, riots, civil disorders, etcetera.
    This language in my amendment gives the SBA the authority 
to make disaster loans in certain situations, even if the 
President has not authorized the area as a disaster area. 
Unfortunately, the terms ``ice storm'' and ``blizzard'' do not 
appear on this list of exceptions.
    The amendment I propose today would include these terms in 
the definition of a disaster, strongly benefiting small 
business owners who are trying to get back on their feet 
following an ice storm or blizzard.
    I urge my colleagues to recognize that some disasters, 
which profoundly impact small businesses occur in the winter 
and ask them to support this amendment. And I yield the balance 
of my time.
    Chairwoman Velazquez. Thank you.
    I will support this amendment. I think that it is 
important. Winter storm had a dramatic impact on Iowa's 
economy. At the peak of losses, 250,000 customers were without 
power, 60 counties were declared disaster areas.
    Currently SBA is able to make disaster loans. When the 
President has declared a disaster area or in certain other 
specific situations, including everything from floods to 
commercial fishery failures, extending this language to include 
ice storms and blizzards fits within existing rationale.
    So I will ask my colleagues to support this amendment. And 
I will recognize Mr. Chabot.
    Mr. Chabot. Thank you, Madam Chairwoman. And I move to 
strike the last word.
    Chairwoman Velazquez. The gentleman is recognized for five 
minutes.
    Mr. Chabot. Thank you. I won't take that time. I commend 
Mr. Braley for offering an amendment. I think it is a good one. 
Ice storms can and in many areas do as much damage, if not 
more, than other events classified as natural disasters. It 
seems to make sense that the definition of a disaster be 
expanded to include ice storms.
    It is important to note that an ice storm represents a very 
measurable event. One knows when it starts. One knows when it 
ends. And one can ascertain the damage from, for example, lost 
fruit in the case of Florida or California, damage to goods 
that lose refrigeration, et cetera, from the loss of 
electricity. Blizzards are somewhat harder to define to be 
getting around.
    And it may be somewhat more difficult to assess the damage 
associated with blizzards, but I still believe this is a very 
good amendment and would urge my colleagues to support it and 
yield back the balance of my time.
    Chairwoman Velazquez. Any other member who seeks 
recognition on this amendment, Mr. Braley's amendment?
    [No response.]
    Chairwoman Velazquez. The question is on the amendment 
offered by Mr. Braley. All of those in favor say ``Aye.''
    [Chorus of ``Ayes.'']
    Chairwoman Velazquez. All those opposed say ``No.''
    [Chorus of ``Noes.'']
    Chairwoman Velazquez. In the opinion of the Chair, the ayes 
have it.
    Any other amendments or comments? Mr. Fortenberry?
    Mr. Fortenberry. Thank you, Madam Chair.
    Again I just want to say I was prepared to support the 
underlying legislation, but given the fourth amendment that was 
considered, it's too broad. I think it undermines the purpose 
of why we are meeting today in this more narrow tailored bill.
    I do appreciate all of the content, much of the content, of 
this bill. And regarding the comments of the ranking member, I 
supported his amendments as well but do note that his concerns 
are mitigated by the fact that the administrator can waive the 
provisions. It is up to his discretion, rather.
    But, with that said, again, this last amendment regarding 
snowfall is far too broad. It is inconsistent in my view with 
the underlying legislation. And I cannot support it.
    Thank you.
    Chairwoman Velazquez. Any other member who wishes to be 
recognized?
    [No response.]
    Chairwoman Velazquez. Seeing no further amendments, I move 
that the Committee vote on final passage of H.R. 1361. All of 
those in favor say ``Aye.''
    [Chorus of ``Ayes.'']
    Chairwoman Velazquez. All those opposed say ``No.''
    [Chorus of ``Noes.'']
    Chairwoman Velazquez. In the opinion of the Chair, the ayes 
have it.
    Mr. Braley. Madam Chair, I ask--
    Chairwoman Velazquez. A recorded vote is requested. The 
Clerk shall call the roll.
    The Clerk. Ms. Velazquez.
    Chairwoman Velazquez. Aye.
    The Clerk. Chairwoman Velazquez votes yes. Ms. Millender-
McDonald.
    Ms. Millender-McDonald. Aye.
    The Clerk. Ms. Millender-McDonald votes yes. Mr. Jefferson.
    Mr. Jefferson. Aye.
    The Clerk. Mr. Jefferson votes yes. Mr. Shuler.
    Mr. Shuler. Aye.
    The Clerk. Mr. Shuler votes yes. Mr. Gonzalez.
    Mr. Gonzalez. Aye.
    The Clerk. Mr. Gonzalez votes yes. Mr. Larsen.
    Mr. Larsen. Aye.
    The Clerk. Mr. Larsen votes yes. Mr. Grijalva.
    [No response.]
    The Clerk. Mr. Michaud.
    Mr. Michaud. Aye.
    The Clerk. Mr. Michaud votes yes. Ms. Bean.
    Ms. Bean. Aye.
    The Clerk. Ms. Bean votes yes. Mr. Cuellar.
    Mr. Cuellar. Aye.
    The Clerk. Mr. Cuellar votes yes. Mr. Lipinski.
    Mr. Lipinski. Aye.
    The Clerk. Mr. Lipinski votes yes. Ms. Moore.
    Ms. Moore. Aye.
    The Clerk. Ms. Moore votes yes. Mr. Altmire.
    Mr. Altmire. Aye.
    The Clerk. Mr. Altmire votes yes. Mr. Braley.
    Mr. Braley. Aye.
    The Clerk. Mr. Braley votes yes. Ms. Clarke.
    Ms. Clarke. Aye.
    The Clerk. Ms. Clarke votes yes. Mr. Ellsworth.
    Mr. Ellsworth. Yes.
    The Clerk. Mr. Ellsworth votes yes. Mr. Johnson.
    Mr. Johnson. Aye.
    The Clerk. Mr. Johnson votes yes. Mr. Sestak.
    Mr. Sestak. Yes.
    The Clerk. Mr. Sestak votes yes. Mr. Chabot.
    Mr. Chabot. No.
    The Clerk. Mr. Chabot votes no. Mr. Bartlett.
    Mr. Bartlett. No.
    The Clerk. Mr. Bartlett votes no. Mr. Graves.
    Mr. Graves. No.
    The Clerk. Mr. Graves votes no. Mr. Akin.
    Mr. Akin. No.
    The Clerk. Mr. Akin votes no. Mr. Shuster.
    [No response.]
    The Clerk. Ms. Musgrave.
    Ms. Musgrave. No.
    The Clerk. Ms. Musgrave votes no. Mr. King.
    [No response.]
    The Clerk. Mr. Fortenberry.
    Mr. Fortenberry. No.
    The Clerk. Mr. Fortenberry votes no. Mr. Westmoreland.
    [No response.]
    The Clerk. Mr. Gohmert.
    [No response.]
    The Clerk. Mr. Heller.
    Mr. Heller. No.
    The Clerk. Mr. Heller votes no. Mr. David Davis.
    Mr. Davis. No.
    The Clerk. Mr. Davis votes no. Ms. Fallin.
    [No response.]
    The Clerk. Mr. Buchanan.
    [No response.]
    The Clerk. Mr. Jordan.
    Mr. Jordan. No.
    The Clerk. Mr. Jordan votes no.
    Chairwoman Velazquez. Any other member who wish to cast 
their vote or change their vote?
    [No response.]
    The Clerk. Madam Chair, the vote is 17 yes votes, 9 no 
votes.
    Chairwoman Velazquez. The bill is agreed to. I move that 
the bill be reported as amended and the staff be directed to 
make any technical corrections prior to the filing of the bill. 
The markup adjourns.
    [Whereupon, at 11:39 a.m., the foregoing matter was 
concluded.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
